Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





    Medicare Beneficiary Interest
          in HMOS in 1995




                  sERVICq
              #
          &                 ~$w
         ~+



                  Jg
                                  JUNE GIBBS BROWN
         #
         <                        Inspector General
         :
          ‘3
           %.
            ++                      FEBRUARY 1997
             %dga
              >                      OEI-04-93-00151
                                                                                   .




                       OFFICE OF INSPECI’OR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is
to protect the integrity of the Department of Health and Human Services programs as well as
the health and welfare of beneficiaries send by them. This statutory mission is carried out
through a nationwide program of audits, investigations, evaluations, sanctions, and fraud alerts.
The Inspector General informs the Secreta~ of program and management problems and
recommends legislative, regulatory, and operational approaches to correct them.




                         Office of Evaluation and Inspections

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The inspection reports provide findings and recommendations

on the efficiency, vulnerability, and effectiveness of departmental programs.


OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,

Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.

Principal OEI staff included:


Atlanta Retion                                                Headquarters

Betty Apt, Team Leader                                        Winnie Walker, Program Specialist

James Green, Contractor                                       Stuart Wright, Program Specialist

Jackie Watkins, Program Analyst                               Barbara Tedesco, Statistician

Joe Townsel, Program Anaijwt                                  Brian Ritchie, Technical SuppoH

Tammy Hipple, Statistician


To obtain a copy of this report, call the Atlanta Regional Office at (404) 331-5022.

Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





    Medicare Beneficiary Interest
          in HMOS in 1995




                  @ SERViC&$ “C/.
              &
             +                  7


        #
         v
                                    JUNE     GIBBS BROWN
        <                           Inspector      General
        2
        ‘5
         ~++       $
                                           FEBRUARY 1997
           4’%d~a
             >                              olw04-93-oo151
                                    ——-




              EXECUTIVE                          SUMMARY

PURPOSE

To determine Medicare beneficiary awareness of and interest in joining health
maintenance organizations.

BACKGROUND

In all geographic areas, Medicare beneficiaries can obtain medical care through a fee­
for-sefice arrangement. However, approximately 74 percent of beneficiaries also
have an option of obtaining medical care through managed care plans known as health
maintenance organizations (HMOS). As of April 1995, approximately 3.7 million
beneficiaries were members in one of 271 Medicare-contracted HMOS.

The Health Care Financing Administration (HCFA) asked us to determine beneficiary
interest in using health maintenance organizations (HMOS). As part of a broad 1995
national survey, we asked 942 beneficiaries about their awareness of and interest in
joining HMOS. We excluded from our sample beneficiaries who were already enrolled
in an HMO. Where possible, we compared beneficiary responses to their responses to
a similar survey we conducted in 1994.

FINDINGS

More bene$kiati were awareof HMOs         than h 1994

  �	
       Seventy percent of the beneficiaries said they had heard of HMOS. This is an
       increase from 1994 when 62 percent said they knew about HMOS.

  �	
       About 44 percent of beneficiaries said they knew whether or not they lived in
       locations where they could join an HMO. This is an improvement from 1994
       when 36 percent said they knew.

  �	
       Fifty-four percent of the beneficiaries said they would like to learn more about
       Medicare-contracted HMOS. This is less than in 1994 when 64 percent said
       they wanted more information.

About a thirdof benefkiarieseqressed an interestinjoiningan HMO

  �	
       Thirty-five percent of the beneficiaries expressed an interest in joining an
       HMO.

  �	
       Of the beneficiaries who were not interested in joining an HMO, about 33
       percent said the main reason was they could not select their own physicians.




                                             i


                              -.

  9	
       Only 7 percent of the beneficiaries expressed concern about quality of care in
       an HMO. This is similar to beneficia~ responses to our 1994 survey.

  9	
       Seventeen percent of the beneficiaries were aware that HMO members have
       appeal rights.

CONCLUSION

Clearly, beneficiary awareness of HMOS is increasing. The increase can be partly
attributed to HCFA projects designed to help educate Medicare beneficiaries about
managed care. For example, HCFA has updated the Medicare and Managed Care
Plans brochure. The increase in awareness can also be partly attributed to the
increase in number of HMOS available for Medicare beneficiaries to join. Over half
of the beneficiaries who knew about HMOS had found out about them through
advertising by the HMO.

However, 30 percent of the beneficiaries we surveyed said they had not heard of
HMOS. Further, the most prevalent reason beneficiaries cited for not wanting to join
an HMO was their inability to select and keep their physicians.

We recognize that HCFA has taken significant steps to enhance beneficiaries’ choices
in medical care. Still, there is always more that can be done. We suggest the
following.

  �	
       Intensi& outreach efforts to educate Medicare beneficiaries about Medicare
       HMOS. For example, HCFA could distribute their managed care brochures to
       senior citizen centers in locations where Medicare beneficiaries can join HMOS.
       In their educational materials, HCFA could highlight characteristics of
       Medicare HMOS, including the benefits offered and appeal rights.

  �	   Explore ways that allow beneficiaries greater freedom to choose their own
       physicians in managed care settings.

AGENCY COMMENTS

The HCFA Administrator concurred with our conclusion that HCFA should intensify
outreach efforts to educate beneficiaries about Medicare HMOS. He reported that
the 1996 Medicare Handbook mailed to all beneficiaries included an extensive
description of the managed care benefit. The HCFA has also worked with beneficiary
advocacy groups, and included representatives from those groups in the development
of educational materials.

The Acting Assistant Secretary for Planning and Evaluation provided several usefd
comments which helped sharpen the interpretation of survey results. In response, we
made changes to clari~ our information where possible and appropriate.



                                           ii
                        TABLE                  OF CONTENTS





EXECUTIVE suMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1



FINDINGS


  �Beneficiary       Awareness ofHMOs               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


  �Interest     inJoininganHMO                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5



CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   . .   8


APPENDICES


     Beneficiary Responses to1995 Survey                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


     Agency Comments             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

                            INTRODUCTION

PURPOSE

To determine Medicare beneficiary awareness of and interest in joining health
maintenance organizations.

BACKGROUND

The M&are      13vgram

Medicare is a Federal health insurance program for individuals age65 and older and
for certain categories of disabled people. In 1995, Medicare insured about 37.6
million beneficiaries, and paid benefits totalling over $159 billion.1 The Health Care
Financing Administration (HCFA)within the Department of Health and Human
Services has responsibility for the Medicare program.

In all geographic areas, Medicare beneficiaries can obtain medical care through afee­
for-setvice arrangement. However, approximately 74 percent of beneficiaries also
have an optionof obtaining medical care through managed care plans known as health
maintenance organizations (HMOS). As of April 1995, approximately 3.7 million
beneficiaries were members inone of 271 Medicare-contracted HMOS.2

In the interestof expanding health care options, HCFA asked us to determine
beneficiary interest in joining HMOS.

llvo Method of ObtainingiUixlicalCare

Fee-for+enke     - Beneficiaries choose their own physicians, hospitals, and other
medical care providers. Providers submit claims to Medicare for services to Medicare
beneficiaries. For physician and most other outpatient services, Medicare pays 80
percent of the amount allowable for a covered service. Beneficiaries pay the
remaining 20 percent of allowable charges, plus Medicare premiums and deductibles.

HMOS - Beneficiaries enroll in Medicare-contracted HMOS which manage their
medical care. Each HMO has a defined geographic area, and the HMO serves
beneficiaries who live in that area. HMOS are responsible for providing a full range
of Medicare services, and may offer other benefits not covered by Medicare, such as
prescription drugs.




   lHealth Care Financing Administration, United States Department of Health and Human SeMces,
Data Compendium, March 1995,

   2Health Care Financing Administration Press Release, November 27, 1995.


                                               1
Typically, after joining an HMO, a beneficiary selects a primary care physician who is
affiliated with the HMO. All medical care is managed by that physician or a case
manager. The primary care physician either provides needed services or refers a
beneficiary to appropriate specialists or other health care providers associated with the
HMO. Beneficiaries are required to obtain all their medical care through providers
affiliated with the HMO they joined, except for emergency and urgently needed care
when they are out of the HMO service area.

Medicare pays HMOS a set amount each month to provide beneficiaries all hospital
and medical services available under fee-for-service. Beneficiaries continue to pay
Medicare Part B premiums. They may also have to pay the managed care plan a
monthly premium and a copayment for services received. However, they do not pay
Medicare deductibles or 20 percent of physician and outpatient charges that are
required under the fee-for-setice program.

METHODS

As part of a broad 1995 national survey to determine beneficiary satisfaction with
Medicare,3 we asked beneficiaries about their awareness of and interest in joining
HMOS. We used questions that were developed by HCFA staff.

In September 1995, we mailed a questionnaire to 1244 randomly-selected Medicare
beneficiaries for whom Part B claims had been filed in Calendar Year 1994.
Beneficiaries were located both in areas that had Medicare HMOS and in areas that
did not have Medicare HMOS. We excluded from our sample beneficiaries who were
already enrolled in an HMO. We used standard equations for estimating sample size
with a binary response variable.

Beneficiary participation in the survey was volunta~. A total of 942 beneficiaries
returned completed questionnaires, for a response rate of 76 percent. Percentages in
the report are based on the number of beneficiaries answering each question. Based
on the response rate, estimates are within 3.2 percent of the true value at the 95
percent confidence level. The individual findings may be less precise, depending on
the number of beneficiaries who responded to specific questions. Appendix A shows
beneficiary responses.

A consideration in surveys of this type is that the results maybe biased if non-
respondents are significantly different from respondents. To determine whether
significant differences exist in this survey, we performed various analyses, including a
comparison of age and gender for the 942 respondents and the 302 non-respondents.
The analyses revealed no significant difference, which suggests that our survey results




   30ffke of Inspector General, United States Department of Health and Human Services. Medicare
BeneficiarySatisfaction: 1995. 0EI-04-93-O0150.


                                                  2
were not biased based on age and gender. We were unable to determine if any non-
response bias existed as a result of other factors, such as health and disability.

(hnpw&on m I?evious Suwy�

In 1994, we conducted a similar national survey of Medicare beneficiaries to assess
their awareness of and interest in joining an HMO .4 Since most of the questions used
in the 1995 survey were also used in our 1994 survey, we were able to compare
beneficiary responses in 1994 and 1995. We have determined significant differences in
beneficiary responses through use of a t-test.



We conducted this inspection in accordance with the Qua2i~ Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




   40ffice of Inspector General, United States Department of Health and Human Services. Medicare
Beneficiq   Merest in HA40s. 0EI-04-93-O0142.


                                                3
                                 FINDINGS

MORE BENEFICIARIES WERE AWARE OF HMOS THAN IN 1994

Seventy percent of 918 beneficiaries who responded to our question about awareness
said they had heard of HMOS. This is an increase from 1994 when 62 percent said
they had heard of HMOS.

We asked the 308 beneficiaries who said they lived in a location with an HMO to tell
us how they heard about the HMO. Seventy-eight percent (240 of 308) of them
responded. Table 1 shows that most of those who had heard of HMOS did so through
advertisements.




      Advertising                                    138                 58
      (Television, Newspaper, Direct Mail)
      Family and Friends                              55                 23
      Former or Current Employment                    22                  9
      Insurance Companies                              9                  4
      Physicians                                      9                   4
      Previous Experience in an HMO                   4                   2
      Other                                           15                  6
      (Hospitals, Senior Citizen Centers,
      and Newscasts)
      “Some beneficiaries mentioned two ways of learning about HMOS.
      Therefore, the percentages total more than 100%.

These methods of awareness are similar to those identified by beneficiaries during our
1994 survey.

About 44 Penxnt of the Beni@ia&      Khew Whetheror Not l%ey Lived in a Location�
W%erel%ey CouklJoin an HMO�

We asked beneficiaries if they lived in a location where they could join an HMO.
Thirty-four percent of the beneficiaries (308 of 916) said they lived in a county with
HMOS that contract with Medicare. About 10 percent said they did not live in
locations where beneficiaries could join HMOS. Table 2 shows that in 1995 more


                                             4
beneficiaries than in 1994hew        whether they lived invocations seined by Medicare
HMOS.
                            TABLE 2
       BENEFICIARIES WHO ARE AWARE OF HMOS THEY CAN JOIN

          m                         ‘                ‘o        ~N~’~Qw1

          E     1995                 34%             10%            56%
                1994                 26%             10%            64%


FewerBenefi’chriesWantedMore Inforrnution�
                                        About HMOS llaanin 1994�

Fifty-four percent of 796 beneficiaries who answered our question said they would like
to learn more about Medicare-contracted HMOS. This is less than the 64 percent
who, in 1994, said they wanted more information about HMOS.

ABOUT A THIRD OF BENEFICIARIES EXPRESSED AN INTEREST IN
JOINING AN HMO

Thirty-five percent of the 796 beneficiaries who answered our question expressed an
interest in joining an HMO. In 1994, 27 percent said they would be interested.
However, as shown in Table 3, we offered a “Don’t Know” response in the 1994 survey
which we did not include in the 1995 survey. Therefore, we cannot determine if there
is a significant difference between responses to the 1994 and 1995 surveys.

                               TABLE 3�
                BENEFICIARY INTEREST IN JOINING AN HMO


          m                        :? ,...No . ,!?wmwi!
                                   ~~               I
          E
                1995                 35%             65%
                1994                 27%             39%            34%


Ba@cbia      Want   to   Choose   l%eir Physicians

Of the 65 percent who said they would not be interested in joining an HMO, 63
percent (330) cited one or more objections. Table 4 shows that most beneficiaries
were concerned about their inability to select their doctors if they joined an HMO.

Only 7 percent of the 330 beneficiaries expressed concern about quality of care in an
HMO, These concerns are similar to those expressed by beneficiaries in 1994.




                                               5

   Inability to Select Physician(s)
                 108                 33
   Desire to Keep Present Physician
                 88                  27
   Satisfied with Insurance Coverage
                43                  13
   Perceived Restrictions in an HMO
                 27                   8
   Perceived Poor Quality of Care
                   22                   7
   Lack of Enough Information on HMOS
                14                  4
   Friends’ and Relatives’ Bad Experiences
           11                  3
   Other
                                            28                   8
   (Too Old, Do Not See Advantage, Too

   Far to Drive, and Too Expensive)

   *Some beneficiaries mentioned ~oobjections    tojoining   HMOs.   Therefore,
   the percentages total more than 100%.


Few Benefi&ries Kkew About TheuAppeal R&h�

In the 1995 survey, we asked beneficiaries if they were aware that Medicare HMO
members could appeal decisions HMOS made about their medical care. Only 17
percent (149 of 883) were aware of this. [Readers should recall that respondents to
~his sumey were ~ members of an HMO’. An OIG survey of HMO m;mbers
conducted in 1995 showed that HMO members were knowledgeable about their
general right to complain about HMO services--OEI-07-94-O028 l.)




                                          6

                            CONCLUSION
Clearly, beneficiary awareness of HMOS is increasing. The increase can be partly

attributed to HCFA projects designed to help educate Medicare beneficiaries about

managed care. For example, HCFA has updated the Medicare and Managed Care

Plans brochure. The increase in awareness can also be partly attributed to the

increase in number of HMOS available for Medicare beneficiaries to join. Over half

of the beneficiaries who knew about HMOS said they found out about them through

HMO advertising. However, 30 percent of the beneficiaries we surveyed said they had

not heard of HMOS.


The most prevalent reason beneficiaries cited for not wanting to join an HMO was

their inability to select and keep their physicians. We recognize that HCFA has taken

significant steps to enhance beneficiaries’ choices in medical care. For example, under

HCFA guidelines, some HMOS are implementing a “point of service” option which

allows beneficiaries to obtain health care sewices outside the HMO’s contracted

provider network for specified services. Beneficiaries usually pay higher copayments

for those services received outside the HMO.


Still, there is always more that can be done. We suggest the following.


  �	
       Intensify outreach efforts to educate Medicare beneficiaries about Medicare
       HMOS. For example, HCFA could distribute their managed care brochures to
       senior citizen centers in locations where Medicare beneficiaries can join HMOS.
       In their educational materials, HCFA could highlight characteristics of
       Medicare HMOS, including the benefits offered and appeal rights.

  �	   Explore more ways that allow beneficiaries greater freedom to choose their
       own physicians in managed care settings.




                                           7

                  AGENCY               COMMENTS

The HCFA Administrator concurred with our conclusion that HCFA should intensify
outreach efforts to educate beneficiaries about Medicare HMOS. He reported that
the 1996 Medicare Handbook mailed to all beneficiaries included an extensive
description of the managed care benefit. The HCFA has also worked with beneficiary
advocacy groups, and included representatives from those groups in the development
of educational materials.

The Acting Assistant Secretary for Planning and Evaluation provided several useful
comments which helped sharpen the interpretation of sumey results. In response, we
made changes to clari~ our information where possible and appropriate.

Appendix B shows the full text of the comments provided by HCFA and ASPE.




                                         8

                                           APPENDIX                               A


                          RESPONSES TO 1995 SURVEY OF BENEFICIARIES


In some cities, Medicare beneficiaries, like yourself, can join managed care plans such
as health maintenance organizations (HMOS). In an HMO, the primary care doctor
authorizes, arranges for, and coordinates all medical services for you. You are usually
required to receive all your medical care from the HMO’s doctors, hospitals, and other
providers that belong to the HMO.


                         QUESTION                       RESPONSES                   PERCENTAGE


1.          Before today, had you ever heard of HMOS?

            Yes                                                 643                              70
            No                                                  275                              30
             Not Answering:          24


------------------------------   --------------------   -----------------------   ---------------------------     ------------------




2.          a. Are there HMOS in your city or town that Medicare beneficiaries can join?

                         Yes                                    308                              34
                         No                                      89                              10
                         Don’t Know                             519                              56
                          Not Answering:           26


            b. If yes, how did you hear about those HMOS?                                [Open-ended            question)

                         (N = 241, Number Answering Question)

                        HMO Advertising                         129                              54
                        Family and Friends                       55                              23
                        Former Employers                         22                               9
                        Insurance Company                         9                               4
                        Physicians                                9                               4
                        Previously in HMO                         4                               2
                        Other                                    15                               6



                                                               A -1

                            QUESTION                               RESPONSES                           PERCENTAGE


3.	         a. If there were HMOS in your city or town that Medicare beneficiaries could
               join, would you be interested in joining?

                            Yes                                            276                                  35
                            No                                             520                                  65
                            Not Answering:                   79

            b.	 If no, what would be your objections?                                         (Open-ended             auestion)

                            (N = 330, Number Answering Question)

                            Inability to Select
                              Physician                                    108                                  33
                            Desire to Keep Present
                              Physician                                      88                                 27
                            Satisfied with Present
                              Insurance                                      43                                  13
                            Perceived Restrictions                           27                                   8
                            Perceived Poor Quality
                              of Care                                        22                                   7
                            Lack of Information
                              on HMOS                                        14                                   4
                            Friends/Relatives Poor
                              Experiences                                    11                                   3
                            Other                                            28                                   8
-------------------------         ------------------------        -------------------------        -------------------------       -------------------


4.	         Before todav, were you aware that Medicare HMO members can appeal
            decisions HMOS make about their medical care?

                            Yes                                            149                                  18
                            No                                             684                                  82
                            Not Answering: 80

--------------------        ------------------------------         ---------------------------------          ------------------------       -----------


5.          Would you like to learn more about Medicare HMOS?

                        Yes                                                462                                  56
                            No                                             400                                  46
                            Not Answering: 80



                                                                           A -2



           —
  APPENDIX   B




AGENCY COMMENTS




       B-1
                                                                                                                                                               //.
                                                                                                                                                               ,.
                                                                                                                                                               ,,




    ,#’’*xQ*’-

         DEPARTMENT                     OF HEALTH   SL HUMAN   SERVICES                    Health Care Financing Adtilrllttratian
    [
    *                                                                          -.        ----                                      ——..                   .-
     %+f
      %*,*
                                                                                           Th6 Admlni9tfstdr
                                                                                           wachinmwn. D-C. 20201




             DATE:

             T():	            June Gibbs Brown
                              h.specter Gefieral

             FROh&	           Bruce C, Vkiec K&d
                              Admhistiator   ,
,            SUBJECrI	        CM@e of inspector General (OIG) Drafl Report: “Mcticarc 13encficiary
                              Interest in HlvKls in 1995,” (OEI-04-93-00131)


             We reviewed the above-referenced report that examines beneficiary awareness of and
             interest in joining health maintenance organizations,

             Our detailed comments cmthe report recommendations are attached for your
             consideration, Thank you for the oppodunityto review andcommenton this report.

             Attachment
                                                                                    ..




                      ;“iJG
                      S4w
                      Pm
                      MI-AS                                                                                                             -,
                                                                                                                                        -,
                      DIOEC                                                                                                  .          .,.
                                                                                                                                        --
                      m-cl                                                                                                   1“.
                                                                                                                                       r
                      Lwol
                      E;(M:P
                                                                                                 ;.n:              !..
                                                                                                                                       :=
                                                                                                                                       -.. .
                                                                                                                                       .,..

                      /,:7.!.c
                                                                                                     -,.
                                                                                                                                          ,
    -.                                                                                          ;..            ;         ,
                                                                                                                                       /-.J
                      L.-.3                                                                     ::
                                                                                                                                               .-,.
                      r....    ;                                                                 .,




                      t-:: . :                                                                  . .        ,


                                                                                                                         I
                                                                                                                         {’
                                                                                                                                   -.,
                                                                                                                                   -..
                                                                                                                                    ..
                                                                                                                     .             $..
                                                                                                                                   h




                                    .


                                                                                                                                                  ., ..
                  Ckwttxmtsiof the l@dth Care Finabcing Adm.inis&g~
                       QLQffLccof ~cctor G~
                       “J&dcarc Bene@iaxv Interest in ~
                                    (OEI-04-93-0015 1]


    (31GRecwn.mendstion

    o      intemsi~outreach~orts to educateMedicarebeneficiaries aboutMedicare
          HMOs. For example, HCFA oould distibutc its managedcarebrochuresto smiur
          dthmn centers hi locations where Medicarebeneficiariescm join HMOS. IrI its
          educational rnatwials, HCFAcould highlight characteristics of Medicare HMOS,
          including the benefits offered @d appeal rights.”
,
    0	    Explore ways that allow beneficiaries greater freedom to choose their own
          physicians in mannged caJe settings.

    HCFA Res~onse

    We concur. HCFA has been particularly active in reaching out to a wide variety of
    beneficiary advocacy groups and included several of them in internal managed care
    trt@ing tffoti, We also i.ndudtd these groups and other Departmental oqyinizations in
    the development of educational materials. A a result of this outreach our presence and
    voice among these groups have enabled us to develop additional channels for distribution
    and fe~dbwki These channels include many SCIQOIWxm qnters as suggested by the
    OIG.

    HCFA is committed to continu@ efforts to enhance the beneficiaries’ Medicare program
    knowledge, including theh rights and options. Much of this effo~t relies on the
    dcveloprttcnt and distribution of clearly state~ objective information upon which an
    informed choice cau confidently be made.

    This Summer (1996) HCFA mailed the Medicare Handbook to all beneficiaries. This
    handbook included an extensive description of the managed care benefit. If CNG
    resurveys, we would be interested to see if this effort has significantly changed both the
    overall awareness of HMO options and the appeal rights for HMO beneficiaries. The
    Medicare and managedcare brochure has again been wised and widely distributed.
    Both the b~ochweand tlw hwdbook have advertisedthat Mlle[ jnformtion is available
    through the Medicare 800 number. The hotltie inquiries regarding access to lfMOs have
    increased significantly and are documented cmthe contractor’s monthly reports. HCFA
    has also been active in development and disbibution of Medicsm managed care plan
    comptirative information, SevcKalHcFA Regional Offlce~prepared comparative
                     .


                                                                                                 .. ..
        Page 2

        infimnation to assist beneficiaries in their regions in selecting among the options
        available. St~te and tegiumd Insurance Covnschug ad Assistance Programs (N%) as
        well as ~ome advocacy   groupshavealsoproduoed rnamged caw informathnal materials
        and comparison chmts. Within HCl?Acentral office, a major project is undenvay10
        develop and distributecomparisontiormation on all Medicaremanagedcare contractors
        and
          make it availabJe via e1tMmni6
                                    M well
                                        as
                                         traditional
                                              means,
                                                 HCFAparticipated
                                                               with
        the (N3 in the dcvelopmen~publication and distributionof the Medicare Bcncfieiary
        AdvMq Bulletin&Ml~ What McdiGarcEleneficiarics        Need to KnowAboutHwdth
        Maintenance
                 C.hgan.izatiom
                             (H?W)Arrangement;
                                            KnowYourRights,”­
    ,   HCFA encourages contractiq plans and other organizations to provide materiah that
,
        describe the physicianselectionprocess in managedcare plans and the beneficiiuy’s
        abilityto change primarycare physicians
                                             withintheplans, We the need to select      fkom
        a planphysicianisewentidto the managed care model,thefactthatmorethan
        70 percent of physician$now have contractualrelationshipswith HMOSis lesseningthe
        need to sever a Iong=sWtig reladontip. lndee~ the fastestgrowingHMO model
        contracts with individualpracticingphysiciansto provide servicesto membersin theix
        offices.
,.. ,                                                                                                                    y,
                                                                                                                         :,.

               DEPARTMENT      OF HEALTH&      HUMAN     SERVICES                             Office of the Secretary



                                                                                              Washington, D.C, 20201


                                                                                  lG               d

                                                     DEC201996                    EAIG —

                                                                                  SAIG

                                                                                  PDIG 3

                                                                                  DIG-AS

                                                                                  DIG-EC
        TO:            June Gibbs Brown                                           DIG-El x
                                                                                  DIG-01
                       Inspector General                                          DIG-MP =
                                                                                  /41G-LC
                                                                                  oGUIG
        FROM:          Acting Assistant Secretary for                             ExecSec
                       Planning and Evaluation                                    Date Sent
                                                                                          s

        SUBJECT:       Comments on the Office of the Inspector General (OIG) Draft Report:
                       “Medicare Beneficiary Interest in HMOS in 1995,”(OEI-04-93-0015 1)

         The report on Medicare beneficiaries’ knowledge and interest in joining Health Maintenance
         Organizations (HMOS) in 1995 includes some useful information. However, the inclusion of
         beneficiaries who lived in geographic areas not served by risk contracting HMOS makes some of
         the results and comparisons in trends presented in the study very difficult to interpret. For
         example, the report mentions that 3 5°/0 of all Medicare beneficiaries would be interested in
         joining an HMO if one were available. But if one of the goals of the study is to see if
         beneficiaries are informed about their health care options and propensity to join an HMO, it
         would be preferable to focus on the responses of beneficiaries who actually have the option of
        joining an HMO.

        The inclusion of all beneficiaries in the analyses also confounds the discussion of trends in
        beneficiaries’ knowledge. For example, the report mentions that seventy percent of beneficiaries
        surveyed in 1995 were aware that they could join an HMO under the Medicare program; this
        represents an eight percentage point increase from a year previously. An interesting question k
        whether the increase in beneficiaries’ knowledge of HMOS is the result of greater outreach by
        HCFA and the HMOS themselves, or increases in the market penetration of HMOS (or both?).
        The report mentions HCFA projects designed to educate Medicare beneficiaries about their
        health care options and the updating of the Medicare and Managed Care Plans Brochure as
        possible reasons for this increase, but does not discuss the effect of increasing market penetration
        on changes in beneficiaries’ knowledge of HMOS. The number of plans participating in the risk
        contracting program increased by nearly thirty from 1994 to 1995, and the percentage of
        beneficiaries enrolled in HMO rose from 8.1YO (2.3 million beneficiaries) to 10.1’%(3. 1 million).
        Some of the increase in the knowledge of beneficiaries about their health care options is no doubt
        the result of greater market penetration by HMOS and competition.                        -..
                                                                                                 -,
                                                                                                          -,
                                                                                                          -—t
                                                                                               ,
                                                                                                          C_:
                                                                                          r.’”             ~;;      i
                                                                                          ~.                        .,
                                                                                          -.. .            \        “i
                                                                                          ..
                                                                                          r,”!            r<.       ..
                                                                                           :.,                       .
                                                                                           >
                                                                                           ;.. ”           I)       j
                                                                                                            -r:.    ““
                                                                                                   :
                                                                                                   -,..
                                                                                                   :.       c.”:.
                                                                                                    ;       -J
    Page 2- June Gibbs Brown


    To summarize, we have three broad recommendations       that will hopefidly improve the report:

    (1) Clarifi the study population. The Executive Summary mentions that 942 Medicare
    berieficiaries were surveyed, but does not indicate that HMO enrollees were excluded in the
    analyses (see p. I).

    (2) Discuss the implications of including all beneficiaries--both those in managed care market
    areas and those who are not--in the analyses.

    (3) Discuss the importance of HMO market penetration as a possible reason for the increase in
    beneficiaries’ knowledge of Medicare managed care. This should be included in the Executive
    Summary and Conclusion section of the report.
,
    Three additional recommendations not discussed above include:

    (4) Add caveats regarding the absence of nonresponse bias. The fact that the respondents and
    nonrespondents to the survey did not differ significantly with respect to either age or gender does
    not warrant the conclusion that the survey results are probably not biased (p. 2). Health and
    disability are likely to be stronger predictors of response than either age or gender, and we know
    from several studies that health status is an important predictor of Medicare managed care
    enrollment and hence knowledge of Medicare HMOS.

    (5) Discuss the new Point of Service (POS) options that HMOS are developing (under HCFA
    guidelines) to allow enrollees to have access to providers outside of the HMO’s network. This
    could have an impact on enrollment since, as reported in the study, beneficiaries’ greatest
    objection to joining an HMO stems from their inability to choose their own physician.

    (6) Address the following specific problems:

       �	   On p. 1, the report states “For physician and most other outpatient services, Medicare
            pays 80 percent of the amount allowable for a covered service. Beneficiaries pay the
            remaining 20 percent of allowable charges, ph.Is Medicare premiums and deductibles for
            inpatient and outpatient care.” The last sentence is very confusing and mixes up the
            premiums, deductibles, and co-pays under Medicare Part A and Part B.

       �	   On p. 2, the report states “Beneficiaries are required to obtain all their medical care
            through providers affiliated with the HMO they joined, except for emergency and
            urgently needed care when they are out of the HMO service area.” As discussed above,
            this ignores POS options that some HMOS may adopt.
     Page 3- June Gibbs Brown


         “	 Again on p. 2, the report states “The HMOS agree to provide a beneficiary’s total medical
            care for a set amount paid monthly by Medicare.” The HMO is not required to provide a
            beneficiary’s total medical care, but rather health care that is equivalent to the Medicare
            covered services available in fee-for-service.

        “	 The report states that “Beneficiaries continue to pay Medicare premiums (p. 2).” This
           statement needs to be clarified--HMO enrollees only pay Medicare Part B premiums.

     An additional recommendation is that fhture surveys should either collect data exclusively from
     beneficiaries living in areas serviced by HMOS, or if data are to be collected from all
     beneficiaries, the results should distinguish between the two populations.

/	   If you have any additional comments or questions, please contact William Marton of my staff at
     (202) 690-6443.
